HHS/OIG, Audit - "Review of Place-of-Service Coding for Physician
Services Processed by First Coast Service Options, Inc., During Calendar Years
2004 and 2005," (A-01-07-00518)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of Place-of-Service Coding for Physician Services Processed by First Coast
Service Options, Inc., During Calendar Years 2004 and 2005," (A-01-07-00518)
July 8, 2008
Complete
Text of Report is available in PDF format (1.4 mb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Physicians did not always correctly code the place of
service on claims submitted to and paid by First Coast Service Options, Inc.
(First Coast), during 2004 and 2005.  Physicians are required to identify the
place of service on the health insurance claim forms that they submit to
Medicare Part B carriers to ensure that Medicare does not duplicate payment to
the physician and the facility.  Physicians correctly coded the claims for 15 of
the 100 sampled services.  However, physicians incorrectly coded the claims for
85 sampled services by using the office place-of-service code for services that
were actually performed in outpatient hospitals or ambulatory surgical centers.
Based on these sample results, we estimated that First Coast overpaid physicians
$1.5 million for incorrectly coded services provided during the 2-year period
that ended December 31, 2005.
We recommended that First Coast (1) recover the $2,900 in overpayments for the
sampled services, (2) review
our information on the nonsampled services to identify services estimated
at $1.5 million that were potentially billed with incorrect place-of-service
codes and work with the physicians who provided the services to recover any
overpayments, (3) reemphasize to physicians and their billing agents the
importance of correctly coding the place of service and the need for internal
controls to prevent Medicare billings with incorrect place-of-service codes, and
(4) work with the program safeguard contractor to develop a data match that will
identify physician services at high risk for place-of-service miscoding and
recover any identified overpayments.  First Coast agreed with our
recommendations.